September 21, 1999

KENNETH J. HUNTER
CHIEF POSTAL INSPECTOR

YVONNE D. MAGUIRE
VICE PRESIDENT, HUMAN RESOURCES

SUBJECT:	 Audit Report, Classification of Inspection Service Personnel Performing
          Audits (Report Number OV-AR-99-001)

This report presents the results of our audit of the Classification of Inspection Service
Personnel Performing Audits. The audit was conducted in response to a request from
Congressman John McHugh, Chairman, Subcommittee on the Postal Service, to
determine if Postal Inspectors performing audits were properly classified as criminal
investigators.

We concluded that Postal Inspectors performing audits were not properly classified as
criminal investigators. Based on a projection of sample results, we concluded that at
least 91 percent of the 234 inspectors in the audit universe performed audits as their
primary duties during the 18-month period covered by this audit. Audit duties, which are
not consistent with the duties of criminal investigators, are not included in the regulatory
definition of a law enforcement officer.

Management concurred with our recommendations and the corrective actions taken and
planned by management are responsive to the issues raised in the report. These
actions should ensure that Postal Inspectors work the majority of their time performing
criminal investigative duties.

The cooperation and courtesies provided by the Inspection Service staff during the audit
are appreciated. If you have any questions, please contact Bob Pemberton, Director,
Oversight, or me at (703) 248-2300.



Norman B. Hancock
Assistant Inspector General
 for Customer

Attachment
cc: Office of Deputy Postmaster
    John R. Gunnels
    Alan B. Kiel
Classification of Inspection Service                              OV-AR-99-001
 Personnel Performing Audits


                                       TABLE OF CONTENTS
Part I

Executive Summary
                                                    i

Part II

Introduction

   Background                                                        1


   Objective, Scope, and Methodology                                 2


Audit Results

   Position Classification                                           4


          Primary Duties                                             4


          Position Descriptions                                      4


          Internal Controls                                          5


          Pay and Retirement Benefits                                5


          Conclusion                                                 5


          Recommendations                                            6

          Summary of Management’s Comments                           6


          Evaluation of Management’s Comments                        6


Appendix

   Appendix A – Statistical Sampling and Projections                 8


   Appendix B – Management’s Comments                               10 





                                         Restricted Information
Classification of Inspection Service                                                 OV-AR-99-001
 Personnel Performing Audits


                                       EXECUTIVE SUMMARY
 Introduction 	                  Postal Inspectors are law enforcement officers of the U.S.
                                 Postal Service. Postal Inspectors investigate offenses
                                 against the Postal Service and conduct certain audits of
                                 Postal Service operations. Postal Inspectors receive
                                 special pay and retirement benefits due to their job
                                 classification as law enforcement officers.

                                 We completed an audit to determine if Postal Inspectors
                                 performing audits were properly classified as criminal
                                 investigators. The audit was initiated at the request of
                                 Congressman John McHugh, Chairman, Subcommittee on
                                 the Postal Service.

 Results in Brief	               We determined that Postal Inspectors primarily performing
                                 audits were not properly classified as criminal investigators.
                                 We found that 57 of the 60 inspectors in our audit sample
                                 primarily performed audits. Based on a projection of sample
                                 results, we concluded that at least 91 percent of the 234
                                 inspectors in the audit universe performed audits as their
                                 primary duties during the 18-month period covered by this
                                 audit.

                                 Postal Inspector position descriptions included two separate
                                 and distinct job categories: criminal investigations and audit.
                                 Internal controls did not exist to ensure that inspectors
                                 primarily perform criminal investigative duties to support
                                 their law enforcement officer status.

 Recommendations 	               We offer the following recommendations:

                                 The United States Postal Service, Chief Postal Inspector,
                                 should:

                                 1. Establish controls to ensure Postal Inspectors devote 50
                                    percent or more of their work hours to law enforcement
                                    duties, or reclassify the positions to reflect work
                                    performed.

                                 The United States Postal Service, Vice President, Human
                                 Resources, should:

                                 2. Review Postal Inspectors’ duties to ensure they meet the
                                    regulatory requirements of a law enforcement officer.



                                                   i
                                         Restricted Information
Classification of Inspection Service                                              OV-AR-99-001
 Personnel Performing Audits


 Summary of                      Management comments are at Appendix B. Management
 Management’s                    concurred with both audit recommendations. The Chief
 Comments                        Postal Inspector plans to divest the Inspection Service of
                                 “Yellow Book” audit work and agreed to establish a system
                                 to monitor Postal Inspectors’ work hours to ensure
                                 compliance with regulatory guidance for law enforcement
                                 officers. The Vice President-Human Resources agreed to
                                 review Postal Inspectors’ duties to ensure they meet
                                 regulatory guidance for law enforcement officers.

 Evaluation of                   Divestiture of “Yellow Book” audit work is one strategy by
 Management’s                    which the Inspection Service can achieve appropriate use of
 Comment                         criminal investigators. However, the Inspection Service
                                 must ensure that criminal investigators do not spend more
                                 than 50% of their time performing non-criminal investigative
                                 duties to include work previously viewed as audit, but not
                                 “Yellow Book” audit. We will continue to monitor the
                                 Inspection Service’s use of postal inspectors for non-
                                 criminal investigative work to ensure compliance with
                                 regulations.




                                                   ii
                                         Restricted Information
Classification of Inspection Service                                                                    OV-AR-99-001
 Personnel Performing Audits


                                                INTRODUCTION
    Background                      Postal Inspectors are law enforcement officers of the U.S.
                                    Postal Service. Postal Inspectors investigate offenses
                                    against the United States Postal Service (USPS) and
                                    conduct certain audits of USPS operations. As of March
                                    1999, 2541 of 2,155 Postal Inspectors were in audit
                                    assignments. Postal Inspectors charged 11 percent of their
                                    direct time2 to audit projects during FY99.

                                    Title 5 of the Code of Federal Regulations (5 CFR),
                                    subparts 831.902 and 842.802, defines a law enforcement
                                    officer as an employee whose primary duties are the
                                    investigation, apprehension, or detention of individuals
                                    suspected or convicted of offenses against the criminal laws
                                    of the United States. The definition excludes employees
                                    whose primary duties involve inspecting for violations of law.

                                    Primary duties are those duties that are paramount in
                                    influence or weight and constitute the basic reasons for the
                                    existence of the position. In general, if an employee spends
                                    an average of at least 50 percent of his or her time
                                    performing a duty or group of duties, they constitute primary
                                    duties. Duties that are of an emergency, incidental, or
                                    temporary nature cannot be considered primary even if they
                                    meet the substantial portion of time criterion.

                                    Law enforcement availability pay, a form of premium pay,
                                    was granted to Federal law enforcement officers in October
                                    1994 with the passage of Public Law 103-329, the Law
                                    Enforcement Availability Pay Act. Law enforcement
                                    availability pay is fixed at 25 percent of an employee’s basic
                                    pay and is uniformly paid to law enforcement officers if the
                                    annual average of unscheduled duty hours the officer is
                                    available to work is greater than 2 hours per regular
                                    workday. Coverage was extended to Postal Inspectors in
                                    October 1996, by Public Law 104-208, which provides that
                                    compensation and benefits for Postal Inspectors would be
                                    comparable to the compensation and benefits paid for
                                    comparable levels of work in the Executive Branch of the
                                    government.



1
  We reduced the audit universe from 254 to 234 inspectors to minimize travel requirements and to account for
individuals who were not active in their assignments. See Appendix A for further details.
2
  Direct time is work hours reported to a project number. Direct time does not include leave, training, administrative
duties, physical fitness, and threat management hours.

                                                          1
                                               Restricted Information
Classification of Inspection Service                                                                 OV-AR-99-001
 Personnel Performing Audits


                                   Special retirement benefits became available to Postal
                                   Inspectors in July 1948, when Public Law 80-879, “Civil
                                   Service Retirement Act – Annuities for Certain Federal
                                   Employees,” was passed. The act provided that eligible
                                   personnel, at 50 years of age with 20 years of creditable
                                   service, could apply for retirement. Upon recommendation
                                   of the department head, the Civil Service Commission
                                   would review the employee’s work history and determine
                                   their entitlement to an annuity. The requirement for a work
                                   history review was modified in July 1974 by Public Law 93-
                                   350, “Law Enforcement and Firefighter Personnel –
                                   Retirement,” which based entitlement to an annuity on
                                   whether or not an employee had served 20 years in a
                                   covered position.3

                                   Special retirement benefits for law enforcement officers
                                   covered by the Federal Employees Retirement System were
                                   granted in January 1987 by Title 5 United States Code,
                                   Section 8412 (d), “Immediate Retirement.” The provision
                                   added retirement eligibility at any age with 25 years of
                                   creditable service.

                                   Special retirement benefits were granted to law enforcement
                                   officers due to the hazardous nature of law enforcement
                                   work. Specifically, the special retirement benefits were
                                   granted due to the many pressures, risks, and hazards to
                                   health and life, which make it difficult for a law enforcement
                                   officer to perform at the same pace and effectiveness after
                                   the age of 50.

    Objective, Scope, and          Our objective was to determine if Postal Inspectors
    Methodology                    performing audits were properly classified as criminal
                                   investigators.

                                   To accomplish our objective, we defined the universe of 234
                                   inspectors in audit assignments and selected a statistical
                                   sample of 60 inspectors for review. We interviewed the
                                   inspectors, their supervisors and management officials at
                                   nine locations visited. We reviewed documents relating to
                                   the inspectors’ time accounting and work accomplishments
                                   from October 1997 through March 1999. We discussed our
                                   conclusions and observations with appropriate management
                                   officials and included their comments where appropriate.

3
 A covered position is a position that has been approved for special retirement benefits for Federal law enforcement
officers. The Office of Personnel Management and the USPS approved the Postal Inspector positions as covered law
enforcement officer positions.

                                                         2
                                              Restricted Information
Classification of Inspection Service                                               OV-AR-99-001
 Personnel Performing Audits



                                 This audit was conducted from March through July 1999 in
                                 accordance with generally accepted government auditing
                                 standards. We reviewed internal controls over the time
                                 accounting and project controls as they relate to the audit
                                 objective.




                                                    3
                                         Restricted Information
Classification of Inspection Service                                                            OV-AR-99-001
 Personnel Performing Audits


                                            AUDIT RESULTS
 Position                        Postal Inspectors primarily performing audits were not
 Classification                  properly classified as criminal investigators. Postal
                                 Inspector position descriptions included two separate and
                                 distinct job categories: criminal investigations and audit.
                                 Internal controls did not exist to ensure that inspectors
                                 primarily performed criminal investigative duties to support
                                 their law enforcement officer status.

 Primary Duties 	                We determined that 57 of the 60 inspectors in our audit
                                 sample primarily performed audits. Chart 1 identifies that
                                 50 of the inspectors reported 80 percent or more of their
                                 direct time to audit duties during the time period reviewed.
                                 Further, an additional seven inspectors reported between 50
                                 and 79 percent of their direct time to audit duties. Based on
                                 projection of the sample results, we are 95 percent
                                 confident that at least 91 percent of the 234 inspectors in
                                 the audit universe performed audits as their primary duty
                                 during the 18-month period covered by this audit. See
                                 Appendix A for statistical sampling and projection details.


                                       40
                                                                                           37

                                       35

                                       30

                                       25

                                       20

                                       15                                        13

                                       10

                                                                           4
                                       5      3
                                                       2
                                                                1
                                       0
                                            0-49%   50-59%   60-69%   70-79%   80-89%   90-100%
                                                               Inspector


                                       Chart 1. Number of Inspectors Primarily Performing Audits

 Position Descriptions           Inspectors primarily performing audits were able to receive
                                 special law enforcement pay and retirement benefits
                                 intended for law enforcement officers because they worked
                                 under covered position descriptions. Specifically, the Office
                                 of Personnel Management and the USPS approved the
                                 Postal Inspector positions as covered law enforcement

                                                       4
                                            Restricted Information
Classification of Inspection Service                                                OV-AR-99-001
 Personnel Performing Audits


                                 officer positions based on the duties identified in their
                                 position descriptions. Although the position descriptions
                                 identified criminal investigative duties, they also included
                                 audit duties, a separate and distinct job category. As a
                                 result, all Postal Inspectors, whether primarily performing
                                 criminal investigations or audits, were considered law
                                 enforcement officers because they worked under the same
                                 covered position descriptions.

 Internal Controls               Internal controls did not exist to ensure that inspectors
                                 primarily performed criminal investigative duties to support
                                 their law enforcement officer designation. 5 CFR, subparts
                                 831 and 842, requires that persons must spend at least 50
                                 percent of their time performing law enforcement duties to
                                 be eligible for special retirement benefits. However, the
                                 Inspection Service did not have any policies or procedures
                                 to ensure that inspectors work at least 50 percent of their
                                 time on law enforcement duties. As a result, many
                                 inspectors spent the majority of their work hours performing
                                 audit duties.

 Pay and Retirement              Federal law enforcement officers receive law enforcement
 Benefits                        availability pay, a form of premium pay, because they are
                                 required to work irregular hours, and special retirement
                                 benefits due to the hazardous nature of the work.
                                 Allowing inspectors who primarily perform audits to receive
                                 special pay and retirement benefits is inconsistent with the
                                 intent of the laws governing special law enforcement pay
                                 and retirement benefits. Specifically, we determined that
                                 inspectors performing audits did not perform the primary
                                 duties of a law enforcement officer, nor were they subjected
                                 to the hazards typically associated with law enforcement
                                 duties.

 Conclusion 	                    Auditing as a primary duty performed by a Postal Inspector
                                 does not meet the regulatory definition of a law enforcement
                                 officer. Internal controls did not exist to ensure that
                                 inspectors work the majority of their time performing criminal
                                 investigative duties.




                                                    5
                                         Restricted Information
Classification of Inspection Service                                              OV-AR-99-001
 Personnel Performing Audits


 Recommendations                 We offer the following recommendations:

                                 The Chief Postal Inspector, should:

                                 1. Establish controls to ensure Postal Inspectors devote 50
                                    percent or more of their work hours to law enforcement
                                    duties, or reclassify the positions to reflect work
                                    performed.

                                 The Vice President, Human Resources, should:

                                 2. Review Postal Inspectors’ duties to ensure they meet the
                                    regulatory requirements of a law enforcement officer.

 Management’s                    Management comments are at Appendix B. Management
 Comments                        concurred with both audit recommendations. The Chief
                                 Postal Inspector plans to divest the Inspection Service of
                                 “Yellow Book” audit work and agreed to establish a system
                                 to monitor Postal Inspectors’ work hours to ensure
                                 compliance with regulatory guidance for law enforcement
                                 officers. The Vice President-Human Resources agreed to
                                 review Postal Inspectors’ duties to ensure they meet
                                 regulatory guidance for law enforcement officers.

 Evaluation of                   The Chief Postal Inspector plans to divest the Inspection
 Management’s                    Service of “Yellow Book” audit work. According to the 1994
 Comments                        revision of the Government Auditing Standards (generally
                                 referred to as the “Yellow Book”), “Yellow Book”
                                 engagements include other services such as assisting in
                                 developing questions for use at legislative hearings,
                                 developing methods and approaches to be applied in
                                 evaluating a new or proposed program, forecasting potential
                                 program outcomes under various assumptions without
                                 evaluating current operations, and performing investigative
                                 work. Divestiture of “Yellow Book” audit work is one
                                 strategy by which the Inspection Service can achieve
                                 appropriate use of criminal investigators. However, the
                                 Inspection Service must ensure that criminal investigators
                                 do not spend more than 50% of their time performing non-
                                 criminal investigative duties to include work previously
                                 viewed as audit, but not “Yellow Book” audit. We will
                                 continue to monitor the Inspection Service’s use of Postal
                                 Inspectors for non-criminal investigative work to ensure
                                 compliance with regulations.



                                                    6
                                         Restricted Information
Classification of Inspection Service                                             OV-AR-99-001
 Personnel Performing Audits


              STATISTICAL SAMPLING AND PROJECTIONS

Purpose of the Sampling

The objective of the audit was to determine if Postal Inspectors in audit assignments
were properly classified as criminal investigators. In support of this objective, the audit
team employed a stratified random attribute sample design that allowed statistical
projection of the evaluation sample results.


Definition of the Audit Universe

The audit universe consisted of 29 locations having at least three Postal Inspectors in
audit assignments. Those locations encompassed 236 of 254 (93 percent) of such
assignments. This scope limitation was necessary because of time constraints that
made it undesirable to make separate trips to sites to evaluate a single inspector. The
Inspection Service’s roster of individuals and their assignments was the source of the
universe data. The data system accuracy was not tested. However, no errors were
found in the entry of the sampled items.

Sample Design and Modifications

The audit used a stratified design with a two-stage sample in each stratum. The
stratification was chosen to ensure selection of both large and small sites, in terms of
the number of Postal Inspectors in audit assignments. Within each stratum, the two-
stage design was selected to identify sites first, thus limiting travel requirements, and to
select inspectors to evaluate second.

Within the above sample design, 62 of the subject assignments were randomly selected
for review, to provide a one-sided 95 percent confidence interval with a 5 to 6 percent
precision, based on audit team expectations of a high percentage of Postal Inspectors
assigned audit duties (90 to 95 percent).

Specifically, Stratum I included eleven sites that had ten or more Postal Inspectors in
audit assignments. Of the eleven sites, three were randomly selected, and individuals
in ten randomly selected assignments were chosen for interview at each, for a total of
30 individuals in the sample. Stratum II included 18 sites with between three and nine
Postal Inspectors in audit assignments, and six sites were randomly selected for review.
At these smaller sites, all individuals in the audit category were to be interviewed, for a
total of 32 individuals sampled in Stratum II.

During the audit, two assignments/individuals were dropped from consideration. An
individual in the Gulf Coast Division (North Houston) had been assigned to an audit
assignment after having been injured and had not reported direct work hours since the
assignment began. A second individual, in the Northern Illinois Division (Chicago), had

                                                  7                                Appendix A
                                       Restricted Information
Classification of Inspection Service                                         OV-AR-99-001
 Personnel Performing Audits


been in the subject assignment only one month, with most of that time spent on a prior
assignment. These modifications reduced the number of individuals in the sample for
Stratum I to 29 and for Stratum II to 31, and reduced the universe from 236 to 234.

Statistical Projections of the Sample Data

Results are projected to the universe of 234 audit assignments occupied by Postal
Inspectors during the 18-month period covered by this audit, in divisions having three or
more such assignments, as described above. No conclusions are drawn for divisions
with only one or two such assignments; those may or may not follow the pattern
observed at the larger sites.

The sample results were such that the projection is made with an even higher precision
(about 4 percent) than that for which the design was developed.

The attribute tested was whether audit duties were the primary duties of the Postal
Inspectors in audit assignments. Based on projection of the sample results, we are 95
percent confident that at least 91.0 percent of the Postal Inspectors assigned to audit
assignments have audit duties as their primary duties. The unbiased point estimate is
95.9 percent, or 224 individuals.




                                                  8                            Appendix A
                                       Restricted Information
Classification of Inspection Service                            OV-AR-99-001
 Personnel Performing Audits




                                                  9              Appendix B
                                       Restricted Information
Classification of Inspection Service                            OV-AR-99-001
 Personnel Performing Audits


 Major Contributors to
 This Report




                                                 10
                                       Restricted Information
